Appellate Case: 20-3143

Document: 010110424332

Date Filed: 10/16/2020

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

October 16, 2020
Christopher M. Wolpert
Clerk of Court

BENJAMIN VELAYO,
Plaintiff - Appellant,

No. 20-3143
(D.C. No. 2:20-CV-02279-KHV-JPO)
(D. Kan.)

v.
CHERYL FOX; KIMBERLY GRANT,
Defendants - Appellees.

ORDER AND JUDGMENT*

Before MATHESON, KELLY, and EID, Circuit Judges.**

Benjamin Velayo, appearing pro se, appeals the district court’s dismissal
without prejudice of his complaint for lack of subject matter jurisdiction. Finding no
error and exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
I
Plaintiff-Appellant Benjamin Velayo filed a complaint against DefendantsAppellees Cheryl Fox and Kimberly Grant, alleging they violated his privacy rights.
In his complaint, Velayo checked the box to assert subject matter jurisdiction under
* This order and judgment is not binding precedent, except under the doctrines
of law of the case, res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
** After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument.

Appellate Case: 20-3143

Document: 010110424332

Date Filed: 10/16/2020

Page: 2

28 U.S.C. § 1343, which vests original jurisdiction in the district courts over civil
rights violations. However, because Velayo did not mention any federally protected
civil rights that were violated by the defendants, he was ordered to show cause as to
why his case should not be dismissed for lack of jurisdiction. Velayo responded to
the order with additional factual allegations but again failed to identify a federal
issue. Accordingly, the district court found no viable source of federal jurisdiction
and dismissed his complaint without prejudice. Velayo timely appeals that dismissal.
We review de novo the district court’s dismissal of a complaint for lack of
subject matter jurisdiction. Becker v. Ute Indian Tribe of the Uintah & Ouray
Reservation, 770 F.3d 944, 946 (10th Cir. 2014). It is the plaintiffs burden to
establish subject matter jurisdiction. Montoya v. Chao, 296 F.3d 952, 955 (10th Cir.
2002). When the plaintiff is proceeding pro se, as Velayo is, this court construes his
pleadings liberally. Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991).
However, this court “cannot take on the responsibility of serving as the litigant’s
attorney in constructing arguments and searching the record.” Garrett v. Selby
Connor Maddux & Janer, 425 F.3d 836, 840 (10th Cir. 2005).
On appeal, Velayo asserts that the district court erred in dismissing his claims,
but he does not put forth a legal argument to explain why the district court should
have found it had jurisdiction. He does, however, contend the district court erred in
considering events that took place at his old address, instead of his new address,
which is where the facts alleged in his complaint occurred. Aplt. Br. at 4. This
misstates the district court’s judgment. The district court never made findings about
2

Appellate Case: 20-3143

Document: 010110424332

Date Filed: 10/16/2020

Page: 3

the events included in his allegations. It held only that Velayo’s allegations were
insufficient to demonstrate subject matter jurisdiction. ROA at 22.
While Velayo’s filings are dense with facts, they do not mention which civil
rights defendants allegedly violated or any applicable federal law. Thus, even under
the liberal construction afforded to his action, we must agree with the district court
that Velayo’s complaint does not provide any plausible basis to conclude the
defendants’ actions violated a federal right and that, therefore, Velayo has not
established subject matter jurisdiction.
We also deny Velayo’s motion to proceed in forma pauperis. To proceed in
forma pauperis, litigants must show a “reasoned, nonfrivolous argument on the law
and facts in support of the issues raised in the action.” Lister v. Dept, of Treasury,
408 F.3d 1309, 1312 (10th Cir. 2005). Since Velayo does not present any legal basis
to support his claim against the defendants or to contest the lower court’s dismissal
order, his appeal is frivolous.
II
For the foregoing reasons, we AFFIRM the district court’s dismissal of
Velayo’s complaint without prejudice and DENY his motion to proceed in forma
pauperis.
Entered for the Court
Allison H. Eid
Circuit Judge

3

Case 2:20-cv-02279-KHV-JPO Document 8 Filed 07/06/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
BENJAMIN VELAYO,
Plaintiff,
v.
CHERYL FOX and
KIMBERLY GRANT,
Defendants.

)
)
)
)
)
)
)
)
)
)

CIVIL ACTION
No. 20-2279-KHV

MEMORANDUM AND ORDER
On June 4, 2020, Benjamin Velayo filed suit pro se against Cheryl Fox and Kimberly
Grant, alleging that defendants violated his privacy rights. Civil Complaint (Doc. #1). Later that
day, U.S. Magistrate Judge James P. O’Hara allowed plaintiff to proceed in forma pauperis, but
ordered him to show cause why the Court should not dismiss this case for lack of subject matter
jurisdiction. Order (Doc. #5). This matter is before the Court on Plaintiffs Response To Order
To Show Cause (Doc. #7) filed June 11, 2020. For reasons stated below, the Court dismisses
plaintiffs complaint.
Legal Standard
Federal courts have limited jurisdiction. Blume v. Los Angeles Superior Courts. 731 F.
App’x 829 (10th Cir. 2018). To proceed in federal court, plaintiff therefore has the burden to
establish subject matter jurisdiction, which is ordinarily accomplished through diversity
jurisdiction under 28 U.S.C. § 1332 or federal question jurisdiction under 28 U.S.C. § 1331. Id.
(party asserting jurisdiction has the burden of establishing subject matter jurisdiction). Diversity
jurisdiction exists where the parties have complete diversity of citizenship and the amount in
controversy exceeds $75,000. 28 U.S.C. § 1332. Federal question jurisdiction exists where claims

Case 2:20-cv-02279-KHV-JPO Document 8 Filed 07/06/20 Page 2 of 3

arise under the Constitution, laws or treaties of the United States. 28 U.S.C. § 1331.
The Court has an independent duty to ensure that subject matter jurisdiction exists, and
must dismiss the case “at any stage of the proceedings in which it becomes apparent that
jurisdiction is lacking.” Caballero v. Fuerzas Armadas Revolucionarias de Colombia. 945 F.3d
1270, 1273 (10th Cir. 2019). While the Court liberally construes a pro se plaintiffs pleadings, it
does not assume the role of his advocate, and it may not “supply additional factual allegations to
round out a plaintiffs complaint or construct a legal theory on a plaintiffs behalf.” McCoy v.
Kansas. No. 16-2129-JAR, 2016 WL 3549100, at *2 (D. Kan. June 30, 2016) (citations omitted);
see Tatten v. City & Ctv. of Denver. 730 F. App’x620, 624 (10th Cir. 20181. cert, denied sub norm
fatten v. City & Ctv. of Denver. Colo.. 139 S. Ct. 826 (2019).
Analysis
In his form Civil Complaint (Doc. #1), plaintiff checks the box to assert subject matter
jurisdiction under 28 U.S.C. § 1343, which indicates that he alleges a civil rights violation.1 Other
than checking the box, plaintiff does not mention any civil rights that defendants allegedly violated
or any applicable federal law. He merely states:
On March 23, 2020,1 called Cheryl Fox to tell her, “Tell your friends not to bother
me again.” She said, “I will.” It turned out to be a lie. About a week later she
informed her friends my new address. I didn’t give her my new address. She saw
it in the computer system so that means she violated my privacy rights.
Civil Complaint (Doc. #1) at 3-4.
Because these allegations did not establish subject matter jurisdiction, Judge O’Hara
ordered plaintiff to show cause why the Court should not dismiss his claims. Order (Doc. #5) at 6.
Plaintiffs response proffers additional factual allegations, but it is entirely nonresponsive to the

i

Plaintiff does not assert diversity jurisdiction.
-2-

Case 2:20-cv-02279-KHV-JPO Document8 Filed 07/06/20 Page 3 of 3

issue of subject matter jurisdiction. He reiterates that defendants harassed him at his apartment
complex, which was apparently in response to a lawsuit that he had filed against their friend. He
further alleges that Cheryl Fox “did not comply twice to the Patients Privacy Safety Rule, because
she gave my new address to her friends.” Plaintiffs Response To Order To Show Cause (Doc. #7)
at 1. Notably absent from this response is any discussion of subject matter jurisdiction: he does
not mention which civil right defendants allegedly violated or any applicable federal law.2 Thus,
plaintiff has failed to establish subject matter jurisdiction, and the Court must dismiss his
complaint.3 See Caballero. 945 F.3d at 1273 (Court must dismiss case whenever apparent that it
lacks jurisdiction).
IT IS THEREFORE ORDERED that plaintiffs Civil Complaint (Doc. #1) is
DISMISSED without prejudice.
Dated this 6th day of July, 2020 at Kansas City, Kansas.
s/ Kathryn H. Vratil
KATHRYN H. VRATIL
United States District Judge

2

Plaintiff does not explain what the “Patients Privacy Safety Rule” is or its relevance
to his allegations.
3

On June 4, 2020, Judge O’Hara denied plaintiffs request for appointed counsel.
Motion For Appointment Of Counsel And Declaration Of Good Faith Efforts To Obtain Counsel
(Doc. #4); Order (Doc. #5). In his response to the order to show cause, plaintiff again requests
appointed counsel because he cannot afford representation. Plaintiffs Response To Order To
Show Cause (Doc. #7) at 2. To the extent plaintiff is objecting to Judge O’Hara’s decision, the ,
Court overrules that objection. Judge O’Hara explained that plaintiff failed to address any of the
factors that the Court considers when appointing counsel, such as reasonably diligent efforts to
obtain representation. In his response to the order to show cause, plaintiff again ignores these
factors, and instead makes the same argument which Judge O’Hara rejected.
-3-

